C L 1125 Atlantic Avenue
OOPER LE V I 1 NSON Atlantic City, NJ 08401
ATTORNEYS AT LAW Phone: 609.344.3161
Toll Free: 800.529.3161
Fax: 609.344.0939
www.cooperlevenson.com

Direct Phone (609) 572-7550

REBECCA C. LAFFERTY Direct Fax (609) 572-7551
Also Admitted to PA Bar
EMAIL: rclafferty@cooperlevenson.com FILE NO. 54078.6

November 27, 2019

VIA FIRST CLASS MAIL, UPS OVERNIGHT DELIVERY, AND ELECTRONIC FILING

United States Supreme Court
Clerk’s Office

1 First Street, N.E.
Washington, D.C. 20543

Re: Sara Ann Edmondson v. Lilliston Ford, Inc.; Jane and John Does 1 - 10 and XYZ
Corporation 1 — 10
No. 19-582

Dear Clerk:

This firm represents Respondent, Lilliston Ford, Inc., in the referenced matter. Petitioner, Sara
Ann Edmondson, has filed a Petition for a Writ of Certiorari. This firm intends to file a Brief in
Opposition.

This case arises out of a consumer transaction wherein the Petitioner purchased an automobile
from the Respondent. This litigation was initiated in 2012 in the Superior Court of New Jersey, Law
Division. The matter was dismissed without prejudice in 2013 and the parties participated in American
Arbitration Association proceedings. Dissatisfied with the decision in the Arbitration, Petitioner, in
2013, filed a Complaint in U.S. District Court for the District of New Jersey. In April of 2017, the
District Court entered a Judgment against the Petitioner and in favor of the Respondent. Thereafter, in
June of 2017, Petitioner filed an Appeal with the U.S. Court of Appeals, Third Circuit. The Third
Circuit Court of Appeals affirmed the District Court’s decision. Petitioner filed an Application seeking
En Banc consideration of the matter. That Application was denied. Petitioner now asks this
Honorable Court to grant a Writ of Certiorari. In support of that Application, this pro se Petitioner has
submitted an extensive 21 page Brief together with a 59 page Appendix.

The Petitioner first filed a Petition on or about October 8, 2019. It was rejected by the Clerk’s
Office as a result of various deficiencies. The Petitioner submitted a revised Petition for Writ of
Certiorari which was received on or about November 4, 2019. Thereafter, your office was contacted

NEW JERSEY | DELAWARE |NEVADA| FLORIDA
 

COOPER LEVENSON, P.A.

United States Supreme Court
November 27, 2019
Page 2

several times by Kevin J. Thornton, Esquire, a Partner in this firm. Mr. Thornton called your office
several times to find out if the Petitioner’s second submission had been accepted for filing. He was
told that it was not yet filed and that he should follow up. He called as recently as November 18, 2019
and left a detailed voice mail message asking to be advised whether the Petitioner’s Petition had been
accepted for filing and a case number assigned. Mr. Thornton never received any notice from the
Respondent as to whether her Petition was accepted for filing. He called again today, and was
surprised to learn that the Petition was, in fact, docketed as of November 4, 2019 and was assigned No.
19582. Given the filing date, Respondent’s Brief in Opposition is due on December 4, 2019.

Mr. Thornton was the only attorney that handled the below matters after 2017 and only he is
fully familiar with the tortured history of the matter, It is extremely fact specific and frankly often
difficult to follow given the participation of the pro se litigant. Accordingly, Mr. Thornton personally
needs to prepare the Opposition Brief and the matter cannot be fairly or efficiently assigned to any
other attorney in this firm. Furthermore, he has prior commitments to clients and courts and cannot
meet the December 4, 2019 deadline.

Based upon the foregoing, it is respectfully requested that a 21 day extension be granted such
that the Respondent’s Brief in Opposition to the Petition would be due on December 25, 2019.

Thank you for your kind attention to the above.
Very truly yours,

Rebecca C. Lafferty

RCL/pjb
cc: Kevin J. Thornton, Esquire
Ms. Sara Ann Edmondson

CLAC 5367653.1
